                    WithumSmith+Brown A Professional
                    Corporation Certified Public Accountants and
                    Consultants




         U.S. CONSUMER PRODUCT SAFETY COMMISSION

                        Performance Audit of
Performance and Incentive Awards and Within-Grade Increases Program




                           April 21, 2014
                                                               Prepared by WithumSmith+Brown PC
                            For the Consumer Product Safety Commission – Office of Inspector General



Table of Contents
Executive Summary ................................................................................................................. 1-2

Observations            ........................................................................................................................ 3-4

Recommendation ........................................................................................................................ 4

Appendices              ........................................................................................................................... 5

          Appendix A – Background ............................................................................................... 6

          Appendix B – Objectives, Scope, Methodology, and Criteria ....................................... 7-8

          Appendix C – Acronyms and Abbreviations .................................................................... 9

          Appendix D – CPSC Response ..................................................................................... 10
 

WithumSmith+Brown, PC
Certified Public Accountants and
Consultants



8403 Colesville Road, Suite #340              April 21, 2014
Silver Spring, Maryland 20910 USA
301 585 7990. fax 301 585 7975
www.withum.com
                                              Mr. Robert S. Adler
                                              Acting Chairman, Consumer Product Safety Commission
Additional offices in New Jersey, New York,   4330 East West Highway
Pennsylvania, Colorado and Florida
                                              Bethesda, Maryland 20814

                                                                            EXECUTIVE SUMMARY

                                              We were engaged by the Consumer Product Safety Commission (CPSC), Office of
                                              Inspector General (OIG), to conduct a performance audit of CPSC’s Performance and
                                              Incentive Awards and Within-Grade Increases Program (Awards Program). 5 United
                                              States Code § 4302, Establishment of Performance Appraisal Systems, requires that
                                              each agency develop one or more performance appraisal systems which 1) provide for
                                              periodic appraisals of job performance of employees; 2) encourage employee
                                              participation in establishing performance standards; and 3) use the results of
                                              performance appraisals as a basis for training, rewarding, reassigning, promoting,
                                              reducing in grade, retaining, and removing employees.

                                              CPSC’s Awards Program is governed primarily by CPSC Directive System Order
                                              1024.1, Employee Evaluation and Recognition, Performance and Incentive Awards
                                              Programs and Within-Grade Increases, which establishes the agency’s policies and
                                              procedures for implementing the performance and incentive awards component of its
                                              Performance Management System. The stated purpose of the program is to motivate
                                              employees by recognizing and rewarding high levels of performance which contributes
                                              to the accomplishment of management goals and objectives. CPSC also follows
                                              appropriate Office of Personnel Management (OPM) regulations, procedures, and
                                              guidance in pay administration.

                                              This report presents the results of our work conducted to address the performance
                                              audit objectives as specified by the OIG. Our audit objectives were to assess Awards
                                              Program compliance with laws and regulations and to measure the effectiveness of the
                                              program at meeting its stated goals.

                                              We found that CPSC has effectively implemented the annual appraisal and
                                              performance rating component of its Awards Program. CPSC has written policies and
                                              procedures that establish performance standards for evaluation of employee job
                                              performance in compliance with federal laws and regulations. The process is
                                              documented in accordance with OPM requirements and subsequently reported to
                                              OPM’s Central Personnel Data File where all personnel actions for the federal
                                              workforce are maintained. Based on our audit testing, we found CPSC’s appraisal and
                                              performance rating process to be in compliance with CPSC and OPM requirements.

                                              However, we found no written policies and procedures at the agency or organization
                                              level for how cash awards are proportionately allocated based on employee ratings,
                                              and we were not provided documentation to support how final allocation decisions were
                                              made. Without a documented, consistent approach for allocating cash awards at the
                                              organization level, the program is open to the perception of potential inequity and
                                              abuse. Due to this lack of internal controls, the cash awards component of CPSC’s
                                              Awards Program is not operating effectively.

                                              Our work was performed during the period December 2012 to July 2013. We
                                              conducted this performance audit in accordance with generally accepted government
                                                                              1
                                      Prepared by WithumSmith+Brown PC
   For the Consumer Product Safety Commission – Office of Inspector General

auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

CPSC stated that cash awards are given in accordance with the criteria outlined in the
directive and performance awards directly linked to appraisals. Management’s
complete response to our report is in Appendix D.




                                 2
                                                        Prepared by WithumSmith+Brown PC
                     For the Consumer Product Safety Commission – Office of Inspector General

OBSERVATIONS
Introduction
CPSC’s Awards Program is regulated by the Office of Personnel Management. The program dates back
to 1983 when the Pendleton Act or Civil Service Act was enacted. The Act established a merit system to
end favoritism and required promotion by merit competition.

The purpose of the program is to recognize outstanding performance by employees and to encourage
increased productivity and efficiency in agency operations. It provides a way to recognize excellent
performance, exceptional achievement, constructive ideas, and suggestions that conserve work time or
increase program effectiveness.

CPSC’s Awards Program is governed primarily by local agency guidance in the form of CPSC Directive
System Order 1024.1, Employee Evaluation and Recognition, Performance and Incentive Awards
Programs and Within-Grade Increases. The purpose of the guidance is to establish policies and
procedures for implementing CPSC’s Performance and Incentive Awards component of its Performance
Management System in accordance with federal legislation and OPM requirements.

Awards
Differences in levels of work and performance are recognized by pay distinctions through promotions and
within-grade increases. It is the Commission's policy to grant Performance and Incentive Awards in
recognition of excellence in performance. In fiscal year 2011 this program involved approximately 320
total awards (Cash, Time-Off, Quality Step Increase, etc.) totaling approximately $460,000 award dollars.

Each agency has a variety of awards available to reward their employees. Quality Step Increase (QSI) is
a faster than normal within-grade increase used to reward employees at all General Schedule (GS) grade
levels who display high quality performance. To be eligible for a QSI, an employee must: 1) be below
step 10 of their grade level; 2) have received the highest rating available under their performance
management program; 3) have demonstrated sustained performance of high quality, and 4) have not
received a QSI within the preceding 52 consecutive calendar weeks.

Performance cash awards may be awarded to those employees whose most current appraisal rating is at
the “Fully Successful” level or higher. The cash award does not increase an employee’s basic pay. The
award may not exceed an amount greater than 10 percent of an employee’s salary or up to twenty
percent for exceptional performance.

The program also permits for cash awards to be made to employees for Special Act or Service
Recognition. Employees can qualify for this award if they perform a special act or service in the public
interest in connection with or related to his/her official employment. Other awards include granting time
off from duty without loss of pay, a charge to leave as an award in recognition of superior
accomplishment, or an award for other personal effort that contributes to the quality, efficiency, or
economy of Government operations. Employee suggestions, invention, or honor awards may also be
awarded.

Our audit included approximately 320 awards from 63 organizations within CPSC. From the awards, we
selected a random sample of 52 awards from 34 of the organizations. We interviewed the individuals
responsible for program oversight, award nomination, employee evaluation, review of documentation and
reasonableness of award ratings, and approval of cash awards recommended.

Condition
We found that CPSC has effectively implemented the annual appraisal and performance rating
component of its Awards Program. CPSC has written policies and procedures which establish
performance standards for each type of award that provides the basis for evaluation of employee job
performance annually. The standards are communicated to each employee along with the critical
elements of the employee’s position. Annually each employee is evaluated during the appraisal period on



                                                   3
                                                         Prepared by WithumSmith+Brown PC
                      For the Consumer Product Safety Commission – Office of Inspector General

such standards, and employees are rewarded with cash or non-cash awards, if warranted, based on their
performance.

In addition, OPM requires agencies to evaluate their awards programs, as well as document all cash and
time-off awards in compliance with the OPM Operating Manual. Award data is subsequently reported to
OPM’s Central Personnel Data File system where all personnel actions for the federal workforce are
maintained. CPSC’s documentation of the appraisal and ratings process was found to be in compliance
with OPM requirements.

For cash awards, once performance ratings are determined and approved, those employees who receive
an overall performance rating of “Fully Successful” or higher are eligible for a lump-sum cash award. A
percentage of CPSC’s salary budget, as determined by OPM, is the maximum amount available for award
each fiscal year. The CPSC Awards Budget Manager allocates the amounts to the organizations within
the agency, and the Approving Officials are given the responsibility to allocate the funds among the
award-eligible employees in their organizations.

However, there are no written policies and procedures at the agency or organization level for how the
funds are to be proportionately allocated. Based on our interviews, in addition to an individual’s
performance rating and grade level, examples of other criteria considered include such performance
attributes as job description, job complexity, work load, impact to the agency’s mission, cost benefit of an
employee’s contribution, and personal knowledge of an employee’s effort. In other words, an additional
set of criteria, not communicated to the employees, is utilized to allocate cash awards after performance
ratings are approved. The approach followed is unique to each organization within CPSC which is
permitted by OPM in order to better meet the needs of the agency, but the selection of attributes for
allocating cash awards is arbitrary and can change from year-to-year based on who is making the
decision. Without written policies and procedures to define a consistent approach for allocating cash
awards within a CPSC organization and no documentation to support the calculation and application of
awarded cash amounts, the program is open to the perception of potential inequity and abuse. Due to
this lack of adequate internal controls, the cash awards component of the Awards Program is not
operating effectively.

Title 5 U.S.C. Chapter 23 2301 (b) (8) states: “…. (3) Equal pay should be provided for work of equal
value….” With the exception of one Approving Official, none of the other officials interviewed would
provide any documentation to support what additional criteria were factored into the cash allocation
decision or provide support for how the amounts were calculated. In other words, there is no
documentation to support the assertion that equal cash awards are given for equal value. A list of
awardees and cash amounts is provided to the CPSC Awards Review Board for review but no
documentation of the basis for the cash allocation is required. Without adequate support for the decisions
made, the Board is hampered in its ability to provide adequate oversight to the program.

Recommendation

We recommend that the Office of Human Resources Management ensure that each organization
develop written policies and procedures related to the process of allocating cash awards within the
organization, including all criteria used in the decision and how amounts are calculated. Documentation
should be available for review by the CPSC Awards Review Board to ensure the approach is consistently
applied from year to year.


We appreciate the cooperation and courtesies that CPSC personnel extended to us during this audit.


Sincerely,




                                                     4
                                          Prepared by WithumSmith+Brown PC
       For the Consumer Product Safety Commission – Office of Inspector General




Appendices




                                 5
                                                        Prepared by WithumSmith+Brown PC
                     For the Consumer Product Safety Commission – Office of Inspector General

                                                                                         Appendix A
Background

The Consumer Product Safety Commission was created in 1972 as an Independent Federal Regulatory
Agency, whose mission is to protect the public from unreasonable risks of serious injury or death from
thousands of types of consumer products under the agency’s jurisdiction. CPSC has jurisdiction over
more than 15,000 kinds of consumer products. CPSC recalls products that present a significant risk to
consumers either because the product may be defective or violates a mandatory standard issued by
CPSC.

CPSC is headed by five Commissioners, one of which serves as Chairman of the Commission, who are
assisted by an Executive Director and various other executive officials, including a Chief Information
Officer (Director of Technology Services), and a Chief Financial Officer (Director of Financial
Management, Planning, and Evaluation). CPSC, with approximately 500 employees, is headquartered in
Bethesda, Maryland and has laboratories in Rockville, Maryland, as well as about 100 investigators,
compliance officers, and consumer information specialists spread throughout the country.

CPSC’s Performance and Incentive Awards and Within-Grade Increase Program (Awards Program) is
regulated by the Office of Personnel Management (OPM). The program dates back to 1983 when the
Pendleton Act or Civil Service Act was enacted. The Act established a merit system to end favoritism and
required promotion by merit competition.

The purpose of the Awards program is to recognize outstanding performance by employees and to
encourage increased productivity and efficiency in agency operations. It provides a way to recognize
excellent performance, exceptional achievement, constructive ideas, and suggestions that conserve work
time or increase program effectiveness.




                                                   6
                                                        Prepared by WithumSmith+Brown PC
                     For the Consumer Product Safety Commission – Office of Inspector General

                                                                                          Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The objectives of our audit were to assess CPSC’s Awards Program compliance with laws and
regulations and to determine the effectiveness of the program at meeting its stated goals.

Scope
We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provided a reasonable basis for our findings and conclusions
based on our audit objectives. Our performance audit was not designed to, and we did not, perform a
financial audit of the amounts obligated or expended by CPSC.

We conducted our fieldwork at the CPSC Headquarters in Bethesda, Maryland between December 2012
and July 2013. The audit included examination of approximately 320 awards from 63 CPSC
organizations made during fiscal year 2011.

This performance audit did not constitute an audit of financial statements in accordance with Government
Auditing Standards. WuthumSmith+Brown was not engaged to, and did not, render an opinion on
CPSC’s internal controls over financial reporting or over financial management systems (for purposes of
OMB’s Circular No. A-127, Financial Management Systems). WS+B cautions that projecting the results
of our evaluation to future periods is subject to the risks that controls may become inadequate because of
changes in conditions or because compliance with controls may deteriorate.

Methodology

To accomplish our audit objectives, we obtained an understanding of CPSC’s Awards Program and the
policies, procedures, and other regulatory guidance (see Appendix B) implemented by CPSC to ensure
the program functions as intended. We conducted interviews of individuals responsible for program
oversight and others responsible for various phases of the performance evaluation process, including
award nomination, employee evaluation, review of documentation and reasonableness of awards ratings,
and approval of cash awards recommended.

A performance audit includes gaining an understanding of internal controls over compliance with
significant laws, regulations, and other requirements considered significant to the audit objectives, and
testing the effectiveness of those controls. From approximately 320 awards across 63 CPSC
organizations, a random sample of 52 awards from 34 organizations was selected for testing. We
evaluated those controls accordingly to determine their operating effectiveness.




                                                    7
                                                         Prepared by WithumSmith+Brown PC
                      For the Consumer Product Safety Commission – Office of Inspector General

                                                                               Appendix B (cont.)

Objectives, Scope, Methodology, and Criteria

Criteria

We used the following criteria to accomplish our audit:

   United States Code, Title 5, Chapter 43, Performance Appraisal.

   United States Code, Title 5, Chapter 45, Incentive Awards.

   United States Code, Title 5, Chapter 54, Merit Pay and Cash Awards, Section 5403.

   United States Code, Title 5, Chapter 53, Pay Rates and Systems.

   CPSC 1024.1, Employee Evaluation and Recognition, Performance and Incentive Awards Programs
     and Within-Grade Increases

   CPSC 0330.3, Delegation of Authority, Honor and Cash Awards.

   Record of Commission Actions, October 3, 1984.

   CPSC 1022.3, Performance Management and Recognition System.

   CPSC 1025.1, Merit Promotion Plan.

   Federal Personnel Manual, Chapter 451, Incentive Awards.

   Federal Personnel Manual, Chapter 531, Pay under the General Schedule.




                                                     8
                                                     Prepared by WithumSmith+Brown PC
                  For the Consumer Product Safety Commission – Office of Inspector General

                                                                             Appendix C

Acronyms and Abbreviations

CPSC                Consumer Product Safety Commission

GS                  General Schedule

OIG                 Office of Inspector General

OPM                 Office of Personnel Management

QSI                 Quality Step Increase




                                                  9
                                                    Prepared by WithumSmith+Brown PC
                 For the Consumer Product Safety Commission – Office of Inspector General

                                                                            Appendix D
Consumer Product Safety Commission Response




                                          10
